   October 25, 2004




Financial Management
Military Retirement Fund Processes
Related to Deceased Retirees’
Accounts
(D-2005-007)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
COE                   Certification of Eligibility
DFAS                  Defense Finance and Accounting Service
DMDC                  Defense Manpower Data Center
FMR                   Financial Management Regulation
MRF                   Military Retirement Fund
OMB                   Office of Management and Budget
SSA                   Social Security Administration
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 222024704




                                                                      October 25,2004
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE MANPOWER DATA CENTER
SUBJECT: Report on Military Retirement Fund Processes Related to Deceased Retirees'
         Accounts (Report No. D-2005-007)

      We are providing this report for your information and use. We considered
management comments on a drafi of this report in preparing the final report.
        Comments on the draft of this report conformed to the requirements of
DoD Directive 7650.3 and left no unresolved issues. Therefore, no additional comments
are required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Douglas P. Neville at (703) 428-1061 (DSN 328-1061) or Mr. Thomas J. Winter at
(703) 428-1082 (DSN 328-1082). For the report distribution, see Appendix B. The team
members are listed inside the back cover.
                              By direction of the Deputy Inspector General for Auditing:



                                       Paul 6f Granetto, CPA
                                     Assistant Inspector General
                                     Defense Financial Auditing
                                               Service
            Office of the Inspector General of the Department of Defense

Report No. D-2005-007                                                   October 25, 2004
   (Project No. D2003FH-0104)

                  Military Retirement Fund Processes Related
                         to Deceased Retirees’ Accounts

                                Executive Summary

Who Should Read This Report and Why? Defense Finance and Accounting Service
(DFAS) management, staff, supporting contractor personnel who process Military
Retirement Fund payments, and military retirees and their spouses or dependents should
read this report. The report discusses the need for change in the process for determining
continued eligibility of retirees.

Background. DFAS Cleveland Center administers the Military Retirement Fund, using
contractor support. The fund pays military retirement benefits to retirees or their
survivors for the life of each recipient. During 2003, DFAS administered payments to
about 2 million retirees and survivors totaling about $39 billion. This audit is a
continuation of our audit of the FY 2002 Military Retirement Fund Financial Statements.
In that audit we identified management control weaknesses related to account
management. These weaknesses involved cases where DFAS received death
notifications pertaining to retirees. We identified cases where DFAS should have
suspended and eventually closed accounts based on receipt of a notification of death.

Results. Systemic control weaknesses led DFAS to improperly pay military retirement
benefits of about $4.8 million per month to the accounts of as many as 3,100 deceased
retirees who were still on the retirement rolls as of August 1, 2003. And retiree accounts
that DFAS should have taken steps to close remained suspended, thus incurring
unnecessary maintenance fees. These payments are material to this audit due to their
sensitive nature and were not addressed in the FY 2002 audit results. By working more
closely with the Social Security Administration, DFAS could help improve the accuracy
of both agencies’ databases of deceased beneficiaries and reduce the incidence of
erroneous payments. Also, DFAS should improve efforts to recover benefit payments
made to the accounts of deceased retirees.

Management Comments. The Director of the Defense Finance and Accounting Service
fully concurred with Recommendations 1, 2, 3, 4, and 6 and partially concurred with
Recommendation 5. For recommendation 5, management proposes to annually contact
retirees over a statistically determined age for a Certificate of Eligibility.

Audit Response. Management comments are responsive to all recommendations. The
alternative to Recommendation 5 that DFAS proposed meets the intent of our objective.
We included the full text of the DFAS comments in the Management Comments section
of this report.
Table of Contents

Executive Summary                                                           i

Background                                                                 1

Objective                                                                  2

Finding
     Military Retirement Fund Procedures for Deceased Retirees’ Accounts    3

Appendixes
     A. Scope and Methodology                                              10
         Management Control Program Review                                 11
     B. Report Distribution                                                13

Management Comments
     Defense Finance and Accounting Service                                15
Background
    The Military Retirement Fund (MRF) pays military retirement benefits to retirees
    or their survivors for the life of each eligible recipient. During our FY 2002 MRF
    financial statements audit we identified Defense Finance and Accounting Service
    (DFAS) management control weaknesses related to deceased retirees’ accounts.
    Auditors’ concerns about the management control weaknesses prompted this
    follow-on audit. During FY 2003, approximately 2 million retirees and survivors
    received annual payments totaling approximately $39 billion. We reviewed
    account management procedures related to deceased retirees’ accounts to assess
    efficiency and effectiveness.

    DFAS Cleveland Center administers the MRF payment program with contractor
    support. Closing out accounts of deceased retirees is one responsibility of the
    program. Office of Management and Budget (OMB) and DoD criteria specify
    procedures for DFAS to follow when it receives notification of a retiree’s death.
    However, to avoid mistakenly suspending a living beneficiary’s payments, DFAS
    follows additional procedures to verify a beneficiary’s death before closing an
    account and taking steps to recover erroneous payments.

    The Social Security Death File, an extensive database maintained by the Social
    Security Administration (SSA), is one tool DFAS uses to identify deceased
    retirees through data matching between the SSA and DoD databases. The SSA
    database lists all deceased persons who had a Social Security number. However,
    inaccuracies exist in the SSA database that make confirmation of the data
    necessary before DFAS stops payment on the retiree account. More than
    70 million names were in the SSA database during 2003. The Defense Manpower
    Data Center (DMDC) - West performs the data matching monthly and provides
    the results to DFAS. DFAS procedures state that it will:

           •   independently validate the data to prevent an inappropriate suspension,
               and

           •   suspend payments if a retiree does not provide a timely Certificate of
               Eligibility (COE) with a notarized signature when DFAS sends such a
               request. DFAS sometimes receives notification of a retiree’s death
               from nongovernmental sources, such as phone calls from relatives.

    However, the data matching process using the SSA and DFAS databases may be
    the first and only form of death notification to DFAS because relatives do not
    always contact DFAS or provide a death certificate.




                                        1
Objective
    Our overall objective was to evaluate how DFAS determines whether a military
    beneficiary has died, and how DFAS verifies the death and stops payments to the
    deceased retiree’s account. We evaluated the process of matching the DFAS
    retiree database to the SSA Death File through the use of a computer data mining
    software program that performs a 100-percent data match between the SSA Death
    File and the DFAS retiree database. We also assessed management controls over
    the payment process for military retirees. See Appendix A for a discussion of the
    scope and methodology and the review of the management control program.




                                        2
            Military Retirement Fund Procedures for
            Deceased Retirees’ Accounts
            DFAS continued to pay retirement benefits to some deceased retirees’
            accounts despite death notifications from the death match procedure
            between Government databases. Further, DFAS did not act to recover
            erroneous payments in an effective or timely manner. This occurred
            because DFAS and its contractor support staff did not always identify
            deceased retirees from data matching results provided to them, as required
            by DFAS policies. Further, DFAS did not stop payments pending
            validation of the death notification, as required by DoD Financial
            Management Regulation volume 7B, chapter 30. Also, DFAS did not
            proactively verify retirees’ continuing eligibility, but relied on reports
            from other Federal Agencies and nongovernmental sources concerning
            retirees’ deaths. As a result, during FY 2003, DFAS improperly paid
            military retirement benefits totaling about $4.8 million each month to
            about 3,100 deceased retirees’ accounts.


Criteria
     Office of Management and Budget. OMB Bulletin 92-04, “Guidance for
     Termination of Federal Benefits to Deceased Beneficiaries,” January 15, 1992,
     states that Federal agencies that pay benefits should monthly access the SSA
     database listing deceased individuals and match the data against their own
     payment files to identify deceased beneficiaries. Additionally, Bulletin 92-04
     requires that DFAS independently verify the death before terminating benefits.
     After verification, agencies must immediately terminate payment and, if
     applicable, initiate recovery of erroneous payments.

     DoD Financial Management Regulation (FMR). DoD 7000.14-R, DoD
     Financial Management Regulation, Volume 7B, chapter 30, “Death of Retiree,”
     October 2000, requires that DFAS suspend a retiree’s account upon receipt of a
     notification of death from any source until DFAS verifies the death.

     DFAS-Cleveland Standard Procedures. The DFAS Cleveland Center issued
     standard operating procedures for processing accounts of deceased retirees.
     Standard Operating Procedure 4832.10, “Death Match Processing,”
     October 2, 2000, states that DFAS should match the SSA death data against its
     database of retirees on a monthly basis to determine the continued eligibility of
     the retirees. The procedure requires that DFAS send the retiree a letter requesting
     notarized proof of continuing eligibility. The letter states that DFAS will suspend
     benefit payments if they do not receive a notarized response from the retiree
     within 30 days. The procedure also requires that guardians of retirees who have
     been adjudicated as incompetent, and retirees with overseas addresses, certify
     continuing eligibility every 6 months by sending in a Report of Eligibility. If
     DFAS does not receive a timely response to the request for certification, it should
     suspend payments in accordance with regulations and guidance.



                                          3
           Standard Operating Procedure 3551.00, “Report of Existence/Certificate of
           Existence Processing,” November 4, 1999, provides policy and procedures for
           processing reports of eligibility and certificates of eligibility by which retirees or
           their legal guardians can verify their continuing eligibility to receive benefits.
           Also, the procedures provide policy for suspending payments if the retiree or
           legal guardian does not respond timely.

           Standard Operating Procedure 4801.00, “Reclamation Action on Outstanding
           Payments on Deceased Retired/Retainer Pay Accounts,” January 6, 1993,
           provides policy and procedures for reclaiming funds erroneously paid to a
           deceased retiree. The Procedure requires that DFAS try to recover the payments
           from the bank or next of kin, as appropriate. If DFAS cannot collect the
           overpayment, the debt collection group at DFAS Denver Center starts an
           additional collection process. DFAS is required to refer the debt to the United
           States Treasury in the event it remains uncollectible.


Payments to Deceased Retirees’ Accounts
           Death Notifications. DFAS receives notifications of retirees’ deaths primarily
           from survivors or from the Department of Veterans Affairs. DFAS can also
           ascertain that a retiree is deceased by using the data matching process. The DoD
           FMR and DFAS standard operating procedures require DFAS to follow up on
           death notifications and discontinue payments if the retiree is deceased or does not
           timely respond to an inquiry for continued eligibility. We performed an
           alternative data matching procedure using our data mining software. In this
           manner we identified about 3,100 retirees whom the SSA showed as deceased
           before August 1, 2003. We judgmentally selected and reviewed 99 individuals
           from that universe to assess the effectiveness of DFAS account management
           procedures.

           As shown in Chart 1, DFAS did not always follow the FMR-prescribed data
           matching procedures. In 42 of the 99 cases we reviewed, the DFAS case file
           showed no evidence of any notification of death. In all cases, the SSA Death File
           showed the individual as deceased. In some cases, the SSA Death File showed
           the retiree died more than 2 years earlier, and DFAS continued to pay retirement
           benefits.1 One retiree died in 1985, according to the SSA Death File, at age 83.
           However, DFAS continued payments until February 2004, when he would have
           been 102 years old, paying out about $351,000. DFAS stopped payment on the
           account after we brought it to their attention. DFAS should have identified these
           deceased individuals earlier because DMDC provides the data matching results to
           DFAS monthly. However, DFAS continued to make payments beyond a
           reasonable time after the retirees’ deaths.

           Chart 1 also indicates that DFAS issued a letter requesting a COE in 44 cases, but
           the retirees did not respond in 32 of these cases. DFAS did not suspend and stop
           payments to any of the 32 accounts, and 5 of the accounts remained active more

1
    In the majority of cases we reviewed, the SSA Death File shows the person to be deceased for less than
    2 years.



                                                      4
    than 2 years after the retiree should have answered the COE letter. The controls
    over the DFAS manual COE letter system were not adequate to effectively
    monitor the COE requests sent out and the retirees’ responses. As a result, DFAS
    made payments of about $47,000 monthly to these 32 retiree accounts after the
    individuals’ deaths. DFAS should develop and implement effective controls to
    track COE letters and responses, such as establishing control serial numbers for
    the COEs to account for all related documents.

                   Chart 1. DFAS Action on Audit Sample Items
                 No COE required
                      (13)                          COE sent - no response
                                                    received. Account not
                                                    suspended.
                                                                (32)




        COE required –
        not sent (42)
                                                        COE sent - response
                                                        received (12)




    Recovery of Erroneous Payments. DFAS did not always initiate timely action
    to recover erroneous payments after it verified a retiree’s death. Standard
    Operating Procedure 4801.00 prescribes recovery procedures, but does not
    specify when recovery should commence. We reviewed 33 cases in which DFAS
    stopped payment on the account when it received proper death verification some
    time after the retiree died. Although DFAS did initiate timely recovery
    procedures in 11 of these cases, the files for the other 22 cases showed no
    evidence of DFAS attempts to recover erroneous payments.


Causes of Erroneous Payments
    DFAS Cleveland and its contractor support staff did not effectively implement the
    data matching process, as required by DFAS Cleveland Standard Operating
    Procedure 4832.10, and did not always suspend accounts pending validation of
    the death notice, as required by DoD FMR volume 7B, chapter 30. Furthermore,
    DFAS did not proactively verify members’ continuing eligibility, but relied on
    external reports of retirees’ deaths before taking any action. In the case of the
    individual who died in 1985 at age 83, DFAS could have avoided the long-term
    payout by issuing a COE letter. Then, if DFAS received no response, it should
    have stopped payment on the account.



                                        5
Data Matching Results. DMDC performs monthly data matching between the
retiree database and the SSA Death File, and provides the results to DFAS.
DFAS then assembles the data into manually processed Excel spreadsheets that it
(or the contractor staff) tracks manually. The manual processing and tracking
increases the risk of data errors and decedents not being identified. As a result, a
retiree could be deceased for a long time before DFAS became aware of the death
and took steps to stop payment on and close the retiree’s account.

Account Suspension. DFAS did not timely suspend payment on all accounts
upon confirming they had a legitimate death notification on retirees. The DoD
FMR requires that DFAS suspend a retiree’s account when there is a reason for
DFAS to believe that a retiree is deceased. However, DFAS standard operating
procedures require that retirees first be given an opportunity to certify their
continuing eligibility. The retiree’s account should not be suspended unless
DFAS does not receive a response within 60 days. However, DFAS does not
timely suspend all accounts once it receives a notification of death or when a
COE request is unanswered.

DFAS and contractor officials explained that they are reluctant to immediately
suspend payment on an account upon receipt of a death notice from a source they
consider to be prone to errors, such as the SSA database. DFAS is reluctant to
stop a retiree’s benefits because of the hardship it might cause a retiree who is
still eligible, and the potential for adverse publicity. DFAS and the contractor
wish to independently verify that the person is alive by mailing out a COE request
and waiting the appropriate number of days for the return of the signed, notarized
document. However, in some cases DFAS issued a COE letter and did not get a
response, and there was no evidence that DFAS suspended payment on the
account as it should have according to DFAS guidance.

Reliability of Death Notifications. DFAS and contractor officials considered the
SSA Death File to have a significant error rate. Therefore, they were reluctant to
suspend an account without first trying to validate the report of death by the COE
process. Of the 99 cases we reviewed, the SSA Death File showed an incorrect
date of death in 32 cases, and at least 10 of these individuals were still alive
according to the DFAS case files. Errors included cases in which the deceased
individual was not the retiree but the retiree’s spouse. Despite these errors, the
SSA death information is correct in most cases, especially for recent deaths.

The SSA Death File records show if a friend or relative verified an individual’s
death, and have a code, “V,” in the file. SSA considers a death certificate as
proof positive of an individual’s death and codes it as a “P” in the file. DFAS
considers delivery of a death certificate as the only proof positive that a retiree is
deceased. The absence of a V or P code indicates that the death is neither verified
nor proven. However, about 93 percent of the death reports identified by our SSA
file matching process had a V or P code. Of the SSA file death reports, coded V
or P in our audit sample, more than 98 percent of the dates of death were correct.

DFAS and contractor officials considered phone calls from next of kin and
written notifications to be much more reliable than the data matching process, and
a death certificate to be the final word. However, if a relative or other person
does not provide DFAS a death certificate, none will be in the files because DFAS


                                      6
           takes no initiative to obtain one. DFAS and contractor personnel initiated
           suspensions and termination procedures promptly upon receiving notification
           from a retiree’s family in 33 out of 37 such cases (89 percent) in our judgmental
           audit sample.2 This is much better performance than with the SSA data match
           procedure, but it still leaves room for improvement.

           Proactive Measures. DFAS does not proactively verify that retirees are still
           eligible for retirement benefits. Verifying eligibility would be a prudent business
           practice. DFAS does send out a COE after receiving notification of a retiree’s
           death. However, DFAS makes payments until the SSA file match process
           identifies the retiree as deceased and DFAS validates the notification. The
           inefficiencies of the SSA file match process sometimes result in significant time
           passing before DFAS acts on a reported death. In six cases, DFAS sent out a
           COE request or suspended an account because there was an unanswered COE
           request during the audit. When we brought the reported deaths to DFAS
           managers’ attention they were cooperative and acted in a timely manner to stop
           monthly payments. SSA had reported at least one of the retirees’ deaths as early
           as 1985.

           DFAS can and should implement proactive contacts with retirees to determine
           whether they are still eligible for retirement benefits. Methodologies such as the
           COE request letter are already in use as part of the SSA data matching process.
           This COE application could be expanded and used on a random or deliberate
           basis, using other criteria. DFAS could proactively confirm the continued
           eligibility of retirees by inquiring about the accuracy or receipt of the payments
           made to date. The recipient could have a change in marital status, residence
           change, or other life-changing event that affects benefit payment amounts or
           processes. DFAS should develop a plan by which retirees would be periodically
           contacted, similar to the DFAS standard operating procedures that require
           periodic contact with incompetent recipients and retirees who have international
           addresses. Recipients more than 80 years old could be contacted annually since
           they represent about 124,000 (7.4 percent) of the total population of about
           1.7 million military retirees. DFAS could mail its standard COE letter and follow
           the standard procedure to suspend payments if a timely response is not
           forthcoming from the recipient.


Effect of Erroneous Payments
           By not responding to all notifications of death, as required by the DoD FMR,
           DFAS improperly paid military retirement benefits to as many as 3,100 retirees’
           accounts after the retirees had died. For the 68 cases we reviewed, in which
           DFAS should have suspended the accounts, DFAS improperly paid about $98,000
           monthly to deceased retirees whose DoD accounts were active on August 1, 2003.
           Most of these individuals were deceased as reported by the SSA, but we identified
           some errors in the SSA database. The SSA Death File reported about 4,700
           additional deceased individuals as of September 30, 2003. DFAS should take
           action to validate these reported deaths and implement the prescribed procedures.
2
    The judgment sample percentage does not generalize to the universe.



                                                      7
    As a result of DFAS not pursuing timely reclamation of erroneous payments, the
    funds were not available for other Government use. Delays in reclamation can
    decrease the likelihood of ever recovering the funds. We identified 19 cases in
    which DFAS did not pursue timely reclamation or there was no evidence of a
    reclamation attempt for payments after death. As of February 2004, DFAS made
    overpayments totaling about $200,000 to the 19 deceased retirees in our
    judgmental sample. The potential for overpayments is significant because DFAS
    makes the majority of payments through electronic fund transfer. Therefore,
    DFAS will automatically continue to make payments into the accounts until
    DFAS is notified of retirees’ deaths and stops the payments. DFAS should more
    timely pursue reclamation of erroneous payments.


Recommendations, Management Comments and Audit
  Response
    We recommend that the Director of the Defense Finance and Accounting
    Service and its supporting contractor:

    1. Promptly identify deceased retirees by using the prescribed Social
    Security Administration Death File match process and validate the death
    reports.

    Management Comments. DFAS concurred and stated that corrective actions
    would be completed by September 2004. In subsequent discussions, management
    stated that corrective actions were completed.

    2. Develop and implement effective controls to track Certificate of Eligibility
    letters and responses, such as unique controlled serial numbers on
    documents.

    Management Comments. DFAS concurred and stated that corrective actions
    will be completed by April 2005.

    3. Follow prescribed procedures to validate reported deaths and suspend
    payments to retirees who do not respond to Certificate of Eligibility requests
    in a timely manner.

    Management Comments. DFAS concurred and stated that corrective actions
    would be completed by October 2004. In subsequent discussions, management
    stated that corrective actions were completed.

    4. Execute and carry out an agreement with the Social Security
    Administration by which the Defense Finance and Accounting Service will
    notify the Social Security Administration of any detected errors in Social
    Security Administration records.

    Management Comments. DFAS concurred and stated that corrective actions
    will be completed by April 2005.



                                       8
5. Proactively verify that retirees remain eligible for retirement payments by
developing and implementing procedures, similar to those in place for
retirees adjudicated as incompetent or those with an overseas address,
requiring certification every 6 months.

Management Comments. Defense Finance and Accounting Service partially
concurred and offered an acceptable alternative procedure to determine continued
eligibility for benefits. Defense Finance and Accounting Service proposes to send
an annual letter to those individuals over a statistically determined age, as
explained on page 3 of the Agency’s comments. Management indicated that
applying the existing rules that apply to incompetent retirees and retirees living
overseas would be too costly and an undue burden on its customers. Management
states that over a recent 18-month period they recovered funds on 99 percent of
accounts owed to the Government by annuitants and retirees. Defense Finance
and Accounting Service projects completion of the proposed actions by June 30,
2005.

Audit Response. Management comments are responsive to the intent of our
recommendation. We consider an annual confirmation for older retirees to be an
excellent start to ensure that only proper payments occur. The Defense Finance
and Accounting Service states that they have a highly successful collection
process for amounts owed to the Government (accounts receivable) which we will
be reviewing in future audits. We do not require further comments on this
recommendation since the alternative solution is acceptable and addresses the
identified issue.

6. For suspended accounts with no death certificate forthcoming from
friends or relatives within a reasonable time frame, contact the authority
issuing the certificate and obtain a copy for DFAS processing.

Management Comments. DFAS concurred and stated that corrective action will
be complete by April 2005.

Additional management comments on the adequacy of management controls are
discussed in Appendix A.




                                    9
Appendix A. Scope and Methodology
   We reviewed the DFAS Cleveland Retired and Casualty Pay Subsystem for
   deceased retiree accounts in pay active status. We reviewed applicable DFAS
   Cleveland Standard Operating Procedures. We interviewed DFAS Cleveland
   Center and supporting contractor officials. We also reviewed retiree files to
   evaluate the support for continued payments of benefits and actions taken by
   DFAS.

   We matched the SSA Death File against the database of retirees in pay active
   status in the Retired and Casualty Pay Subsystem as of August 1, 2003. The data
   match identified 7,879 retirees in the Retired and Casualty Pay Subsystem that
   SSA records showed as deceased, with 3,177 of those retirees deceased before
   August 1, 2003. We also identified 86 retirees whose names differed between the
   two databases, but who had the same social security number. The causes of the
   incorrect Social Security numbers were transposition of numbers and other
   explainable events. Our universe consisted of the 3,177 suspected deceased
   retirees, from which we selected a judgmental sample of 99 retirees. We selected
   the 99 retirees to include those who died years ago as well as those who died
   more recently. See Chart 2 for a depiction of the audit sample with respect to the
   universe of 7,879.

                   Chart 2. Audit Sample as Portion of Universe

                                                  Judgmental Audit Sample (99)


    Accounts matched against
    8/1/2003 payment data                                   Accounts matched
    (3177-99 = 3078)                                        against payments
                                                            made Sept. 1 &
                                                            Oct. 1 2003 (7879
                                                            – 3177 = 4702)




   We reviewed the 99 sample retirees’ case files to determine whether DFAS and
   the supporting contractor followed required procedures when notified of a
   retiree’s death. Specifically we determined whether DFAS validated SSA death
   matching reports in a timely manner and suspended accounts when the retiree was
   no longer authorized monthly payments. We reviewed the 86 accounts with
   mismatched names to determine whether DFAS Cleveland or SSA had the correct
   name for the retiree. We performed this audit from March 2003 through
   March 2004 in accordance with generally accepted government auditing
   standards, as described in “Government Auditing Standards” issued by the
   Comptroller General of the United States.


                                       10
    Use of Computer-Processed Data. We used computer-processed data in this
    audit. Specifically, we used the SSA Death File, Retired and Casualty Pay
    Subsystem, and the Mail Image Routing & Optical Recording System, a DFAS
    archiving system, while conducting our audit. We did not assess the reliability of
    the Retired and Casualty Pay Subsystem or the Mail Image Routing & Optical
    Recording System. The reliability of the data in these systems did not affect the
    results of this audit.

    Use of Technical Assistance. The Data Mining Division in the Contract
    Management Directorate assisted us with data mining procedures, including
    matching the SSA Death File against the retirees in pay active status in the
    Retired and Casualty Pay Subsystem.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD managers to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over the MRF. Specifically we reviewed
    DFAS Standard Operating Procedures that prescribe the procedures DFAS
    Cleveland is required to take when a retiree is reported deceased. We interviewed
    DFAS Cleveland Center officials about the prescribed procedures to determine
    whether they were followed. We did not review management’s self-evaluation
    applicable to the controls over the MRF.
    Adequacy of Management Controls. We identified material management
    control weaknesses as defined by DoD Instruction 5010.40. Management
    controls for the MRF were not adequate to ensure that retirement benefits were
    terminated upon the death of the retiree. Recommendations 1, 2, 3, 5, and 6, if
    implemented, will result in more timely termination of benefits upon the death of
    the retiree, and provide a monetary benefit by reducing the amount of resources
    required to reclaim overpayments made to deceased retirees. Recommendation 4,
    if implemented, will improve the accuracy of the SSA Death File and result in
    fewer living retirees being erroneously identified as deceased during the death
    match process. We will provide a copy of the report to the senior official
    responsible for management controls at DFAS.

    Adequacy of Management’s Self-Evaluation. Management’s self evaluation
    did not detect the material weakness. The frequency of audit sample items in
    which death match procedures were ineffective, and several instances of accounts
    that DFAS management suspended during the audit, indicate that management did


                                        11
    not place enough emphasis on controls over erroneous payments to deceased
    retirees because the dollar amounts are small relative to the overall program
    DFAS administers.

    Management Comments on the Management Control Weakness. DFAS
    agreed to take corrective action in response to all 6 recommendations. DFAS also
    recognizes the value of a more aggressive process to verify continuing eligibility
    to receive retirement benefits. DFAS also stated that it plans to fully automate the
    death match process by April 2005, to include automatic account suspension if a
    CoE request is not answered within the required timeframe. The corrective
    actions, when implemented, should eliminate the weaknesses of the existing
    manual processes and should vastly improve the effectiveness of MRF processes
    related to deceased retirees.


Prior Coverage
    No prior coverage has been conducted on payments to deceased retirees’ accounts
    during the last 5 years. However, the Military Retirement Fund financial
    statements have received an unqualified audit opinion for each of the last 5 years.




                                        12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Audit Service
Naval Inspector General
Department of the Navy
  Superintendent, Naval Postgraduate School

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Intelligence Agency
  Office of the Inspector General
Director, Defense Logistics Agency
Director, Defense Manpower Data Center
Director, National Security Agency

Non-Defense Federal Organizations
Commissioner of the Social Security Administration
Secretary of the Department of Veterans Affairs




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on National Security, Emerging Threats and International
  Relations, Committee on Government Reform
House Subcommittee on Government Efficiency, and Financial Management, Committee
  on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and The Census, Committee on Government Reform




                                        14
Defense Finance and Accounting
Service Comments




                     15
                   DoDIG DRAFT REPORT - DATE JULY 21, 2004
                          DoDIG CODE D2003FH-OI04

  "MILITARY        RETIREML~"T FU~"D PROCESSES RELATED TO DECEASED
                            RETIREES' ACCOu1'\i"TS"

                DEFENSE FINAN(;'!: A~"D ACCOU~"TING SERVICE
                                 COMMENTS
                       TO THE RECOMME~"DATIONS


RECO}"BtE~"DATION I: Promptly identify deceased retirees by using the prescribed
Social Secw-ity .I\dministration Death File match process and validate the death reports.

DF AS RESPONSE: Concur. As of July 30, 2004, we have updated the original
Memorandum of Understanding between DFAS and the Defense Manpower Data
CenterlSocial Security Administration to ensure timely exchange of the data file. We
have created a backup position for the Death Match Admm1stratoJ toemure continuity of
work and consistent application of procedures. For each Death Match Report, the
i.dent:iftcatiOlldata of accounts that require actions are a.dded to a spreadsheet for each
month. The spreadsheet has been updated to track each stage of the death match process,
which now includes documenting the date the initial prudent management letter was sent
to the retiree requesting them to complete Ii Certificate of Eligibility, the date of the 30
day follow-up to the retiree, if required, the 60 day follow-up to determine if the COE is
returned, and the date the account was suspended, if applicable. This improved manual
process w'ill be utilized only lmtil automation of the Death Match process is implemented
as stated in RecOmtnelldatiOll 2.

As of August 30, 2004, the initial letter to the retiree has been modified. It reques'ts the
retiree to complete a Certificate of Eligibility. The letter specifically notes (in bold), that
a failure to complete the Certificate of Eligibility win result in the suspension of the
monthly payment

We are working with the Defense Manpower Data Center to identify additional ftelds on
the cmremtransmission file so they will be added to the report used by Retired and
Annuity Pay for the.Death Match process. There is a Verification (\'')/Proof (P) code that
will be used to place certain accounts man immediate suspensestams upon receipt of the
report. The Verification Code of ,,,,t' identifies retirees on the Social Secw-ity
Admmistration file \\<herea friend or relative has reported their death. The Proof Code of
"P" identifies retirees on the Social Security Admmistration file where the death
certmcateof a retiree has been observed.

ECD:   September   30, 2004




                                                16
RECOADfEI'jDATION2:           Develop and implement effective controls to track
CertificateofEligjb1lity letters and responses, such as unique controlled serial numbers
on documents.

DFAS RESPONSE: Concur. As of November 30,2003, we began annotating all
Certificates ofEligjbility cards in the upper right hand corner of the form before they
were mailed out with the initial letter to the retiree. The annotations denote the month of
the Death Match file received from the Defense Manpower Data Center and the retiree's
branch of military service. This allows for quick recognition when that Gerlificate of
Eligibility is returned and distinguishes it n-om the other Certificate of Eligjbility
processing required for incompetent retirees and retirees with a foreign banking address.

We will implement an automated Death Match process to include automated
c<ouespondence to the 1-et1reeand automated suspense of the aCCQuntifno respOO5eis
received from the retiree within 60 days n-om the date of the initial1.etter.

ECD: Apri130, 2005

RECOADfENDATION 3: Follow prescribed procedures to validate reported deaths and
suspend payment to retirees who do not respond to Certificate of Eligibi.lity requests in a
timely manner.

DF AS RESPONSE: CQfiCUf'.As of July 30, 2004, we have re.."isedthe procedures .in
support of the Death Match process by including more detail concerning the Certificate
ofEligjbility process from rel~    to the retiree and return to our Death 1v:1atch
Adminstrator, as \vell as, ensuring all employees executing the process understand the
requirements.

As of August 30, 2004, the Quality Assurance group in Lockheed :r..:iartinInformatioo
Tedmology has established a procedure for quarterly audits oillie Death Match process.
Reports of these audits \1i"illbe published to the Lockheed l\:1artinInformatioo Technology
Program Mana.ger and the Continuing Government Acti,tity. The first audit is scheduled
mr September 30, 2004.

The Conlinuing Government Activity will develop a Quality Assurance Plan which will
detail the procedures used to review and to ensure the Death Match process is being
completed accurately and timely.

ECD: October 30, 2004

RECOADfEl\I1>ATlON 4: Execute and carry out an agreement with the Social Security
Administration by which the Defense Finance and Accounting Service will notify the
Social Security Administratioo of any detected en-ors in Social Security Administratioo
records.




                                             2



                                                 17
DF AS RESPONSE: Concur. We will acti,.rely pursue the e.,.ec:utiooof a Memorandum
ofUndentanding with the Social Security Administration (SSA) for notifica.tion of errors
in the SSA data. The actual execution of such a.greement is contingent upon SSA's
support. Additionally, discussions between DFAS and SSAmay reveal that the actual
MOU should occur between SSA and the Defense Data:Manpower Center. If so, DFAS
",'ill facilitate   ~1JCh agreement.

ECD: Apri130, 2005

REC01DIE~l)ATION5:Pt'oactil...ely        verify that retirees remain eligible for retirement
payments by developing and implementing procedures, similar to those in place for
retirees adjudicated as incompetent or those \-vithan overseas address, requiring
certification every 6 months.

DF.i\S RESPONSE: Partially Concur. DFAS is pursuing \'3rious opportunities to
increase its e:fThct:ivenessin verifying eligibility to retired pay. This includes annual
cutrncation of eligibility for retirees' at or greater than the median (middle) and mean
(average) age of retirees at death or greater. The median age is 76 years and the mean
age is 74 years. DFAS believes that requiring all retirees to certify eligibility every six
months will create an undue burden on our custom.ers.

Another consideration is US banks are required to return funds deposited after a retiree
dies. The current ACH rnlesfur banks give the Government a means to recoup payments
after a retiree's death. Therefore., the risk of improper payments is minimi7ed, with. the
ability to get most pay"me11tsreturned in a quick manner. Historically, DFAS has
achieved significant success in recovering these funds. For example, over a recent l8-
month period, DFAS successfully recovered funds in over 9904 of the cases. DFAS'
increased oversight and enforcement of applicable procedures, along 'Withthe DFAS
proposed expanded certification process, will mitigate any risks of loss of funds.

DFAS operational cost of implementing a semi-annual certification requirement for all
retirees wowd e.~ceed $4.1 million annually. By comparison, applying an annual
c.ertificJltion requirement to retirees at or above age, for example age 70, will reduce the
recurring annual operational cost to approximately S800Kvice $4.1 million. DFAS
belie\res this approach supports the spirit of the DoDIG recommendation willie reducing
the minimi7'Ulgoperational costs and any burden on relu'ees.

As an additional menure, DFAS isa1.so determining the feasibility of obtaining earlier
verification of eligjbility by phone in situations where the SSA identifies the retirees as
deceased. Positive verification wowd allow DFAS to suspend pa)'U1eI1tspending written
confirmation.

ECD: June 30, 2005




                                              3



                                                  18
RECO;\IMEl'i"DA nON 6.:For suspended accounts 'h-tthno death cerrificate
forthcoming from. fuends or relatives within a reasonable time frame, contact the
authority issuing the certificate and obtain a copy for DFAS processing.

DFAS RESPONSE: Concur. DFAS has contacted the Executive Board of the National
Fu.neca1Directors .J\ssociation for assistance from funeral directors in providing death
notification forms to DFAS on deeeased £t.,tireesserved by the funeral home. These
forms would be used in lieu of death certificates, v.irichwillrequire a change to the
Department of Defense Financial Management Regulation,. Volume 7B. They have
agreed to assist Wiwith the development of a notification system fer funeral homes;
hO'h'ever, it is contingent upon reaching agreement and implementation with this partner
organization.

ECD: April 30, 2005

MA."'AGE:.~T        CONTROL \VEAKNESS:

In the Department of Defense Inspector General's report they identified a material
management control weaknesses as defined by DaD Instrnction 5010.40. Theyfut1her
stated, "Management controls for the Military Retirement Fund were not adequate to
ensure that retirement benefits were. tenninated upon the death of the retiree.
Recommendations 1, 2, 3, 5, and 6, if implemented, ",ill result in more timely tennination
of benefits upon the death of the retiree, and provide IInronetary benefit by reducing the
amount of resources required to reclaim overpayments made to deceased retirees.
Recommendation 4, if implemen~ will improve the accuracy of the Social Security
Administration Death File and result in fewer living retirees being erroneously identified
as deceased during the death match process".

DFAS RESPONSE: DFAS agrees to pursue implementation of Recommendations 1,2,
3, 4, and 6. Additionally, DFAS recognizes the value of IImore aggressive verification
process and agrees to pursue different methods. This includes a.variation of
Recommendation 5.

To ensure the Death li.1.atchFi.1eis being processed, complete automation is scheduled for
April 2005. This automation ",ill systematically mail letters and Certifteates 'Of
Eligibility to the retirees listed on the Death Match File. lfthe Certificate of Eligibility is
not returned within the required timeftame, the account will be automatically ~1ISpended.
In addition. Lockheed ~           Information Technology ",ill pe1"fotmquarterly audits on
the Death Match process,. as well asperi.odic reviews by the Continuing Government
Activity.




                                               4



                                                   19
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Services prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed
to the report are listed below.

Paul Granetto
Douglas Neville
William Kelley
Thomas Winter
Jonathan Rabben
Michael Davitt
Frederick McComas
Mark Heim
Thomas Daquano
